W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-8408

Scott R. Deichsel

Lizzie Tegels, Warden

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

7/13/21

(Type or print) Name Ms. Lisa E.F. Kumfer
Mr.

Ms.

Mrs.

Firm

Wisconsin Department of Justice

Address

17 W. Main Street

City & State

Madison, WI

Phone

608-267-2796

Miss

Zip 53707
Email

kumferle@doj.state.wi.us

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Scott R. Deichsel # 302984
Jackson Correctional Institution

